                                            UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


AUD-FM-IB-13-24                                  Office of Audits                                       March 2013




   Audit of Broadcasting Board of Governors
           FY 2012 Compliance With
      Improper Payments Requirements




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                                            UNCLASSIFIED
                                                           United States Departme nt of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General




                                         PREFACE


     This report was prepared by the Office oflnspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended . It is one of a series of audit, inspection, investigative, and special reports prepared by
01G periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment orthe strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                            Harold W. Geisel
                                            Deputy Inspector General
                                 UNCLASSIFIED



Acronyms
BBG        Broadcasting Board of Governors
IPERA      Improper Payments Elimination and Recovery Act of 2010
IPIA       Improper Payments Information Act of 2002
MBN        Middle East Broadcasting Networks
OCB        Office of Cuba Broadcasting
OFO        Office of Financial Operations
OIG        Office of Inspector General
OMB        Office of Management and Budget
PAR        Performance and Accountability Report
RFA        Radio Free Asia
RFE/RL     Radio Free Europe/Radio Liberty
VOA        Voice of America




                                 UNCLASSIFIED
                                                          UNCLASSIFIED


                                                       Table of Contents
Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1

Background…. .................................................................................................................................1

Objective……. .................................................................................................................................3

Audit Results ..................................................................................................................................3
       Finding A. Program Risk Assessments Were Performed ....................................................3
       Finding B. Controls To Prevent, Detect, and Recapture Improper Payments
       Were Implemented .............................................................................................................5
       Finding C. Required Improper Payments Information Was Reported ...............................8

Appendix
      A. Scope and Methodology..................................................................................................9

Major Contributors to This Report ................................................................................................11




                                                          UNCLASSIFIED
                                           UNCLASSIFIED


                                        Executive Summary
       Federal agencies reported an estimated $108 billion in improper payments in FY 2012.
Over the past decade, the Federal Government has taken steps to identify and reduce improper
payments. In 2010, the Improper Payments Elimination and Recovery Act of 2010 1 (IPERA),
which amended the Improper Payments Information Act of 2002 2 (IPIA), was signed into law.
IPERA strengthened IPIA by increasing requirements for identifying and reporting on improper
payments. In April 2011, the Office of Management and Budget (OMB) issued guidance to
implement IPERA requirements.

        IPERA requires agencies’ Offices of Inspector General (OIG) to annually determine
compliance with improper payments requirements. In accordance with this requirement, OIG
conducted its first annual audit of the Broadcasting Board of Governors (BBG) FY 2011
compliance and reported in 2012 3 that BBG had not implemented all requirements for
identifying and reporting on improper payments. OIG recommended that BBG take actions to
comply with IPIA, as amended by IPERA. 4

       OIG conducted this second annual audit to assess BBG’s FY 2012 compliance with IPIA.
OIG found that BBG complied with improper payments requirements. Specifically, BBG had
conducted an improper payments risk assessment of its significant programs; implemented a
program of internal control to prevent, detect, and recapture improper payments; and reported the
required improper payments information in its FY 2012 Performance and Accountability Report
(PAR). Based on the actions that BBG has taken since the 2012 report, OIG is closing the three
recommendations in the 2012 report upon issuance of this report.

       On March 5, 2013, OIG provided a copy of the draft report to BBG, and on March 13,
2013, BBG responded that it had no comments on the report.

                                             Background
        Federal agencies reported an estimated $108 billion in improper payments in FY 2012.
An improper payment is any payment that should not have been made or was made in an
incorrect amount. Improper payments are overpayments and underpayments, including duplicate
payments, payments made to an ineligible recipient, payments for an ineligible good or service
or for goods or services not received, payments that do not account for credit for applicable
discounts, and payments for which an agency cannot determine whether the payments were
proper because of insufficient documentation or lack of documentation.

      Over the past decade, the Federal Government has taken steps to identify and reduce
improper payments. For example, IPIA, enacted in 2002, required Federal agencies to annually
1
  Pub. L. No. 111-204.
2
  Pub. L. No. 107-300.
3
  Audit of Broadcasting Board of Governors Compliance With the Improper Payments Information Act (AUD/IB-
12-32, March 2012).
4
  Unless otherwise indicated, the term “IPIA” means “IPIA, as amended by IPERA” in this report.

                                                     1

                                           UNCLASSIFIED
                                               UNCLASSIFIED

review programs and activities 5 to identify programs that may be susceptible to significant
improper payments, estimate the annual amount of improper payments, and report the actions
taken to reduce the improper payments. In 2010, IPERA, which amended IPIA, clarified the
programs to be reviewed and expanded improper payments recapture activities. IPERA also
required Inspectors General to determine whether an agency is in compliance and established
additional requirements for agencies deemed noncompliant.

       In 2011, OMB issued Government-wide guidance on the implementation of IPERA as
Revised Parts I and II to Appendix C of OMB Circular A-123, Management’s Responsibility for
Internal Controls. 6 The guidance, among other things, defined the programs and payments that
agencies must assess for the risk of improper payments. It also provided requirements for
determining whether the risk of improper payments is significant, for developing an estimate of
improper payments, for performing recapture audit activities, and for reporting improper
payments activities.

BBG Mission and Organization

        BBG, an independent federal agency, supervises all U.S. Government supported civilian
international broadcasting. BBG’s mission is to inform, engage, and connect people around the
world in support of freedom and democracy. The BBG Federal broadcasting organizations
include the Voice of America (VOA) and the Office of Cuba Broadcasting (OCB), as well as the
management and support offices in the International Broadcasting Bureau. BBG also oversees
three grantee organizations: Radio Free Europe/Radio Liberty (RFE/RL), Radio Free Asia
(RFA), and the Middle East Broadcasting Networks (MBN). RFE/RL, RFA, and MBN receive
funding from the Federal Government but are organized and managed as private nonprofit
corporations.

       BBG’s Chief Financial Officer serves as BBG’s principal financial and budget officer.
The Chief Financial Officer is responsible for, among other things, overseeing all financial
management activities relating to BBG programs and operations, establishing effective financial
management policies and management controls, and ensuring that BBG is in compliance with the
requirements of Executive orders and OMB circulars

       Within the Office of the Chief Financial Officer, the Office of Financial Operations
(OFO) is responsible for financial operations, the accuracy of financial management records,
prompt processing of payments, collection of accounts receivables, liaison with servicing
agencies, and facilitation of the annual audit of BBG’s financial statements. OFO’s Financial
Services Branch processes payments that are initiated by BBG’s domestic offices, while the
Department of State processes payments initiated by BBG’s overseas locations. During
FY 2012, BBG reported outlays 7 amounting to approximately $750 million. Of that amount,

5
  The term “program and activity” will be referred to in this report as “program.”
6
  OMB Circular A-123, Appendix C, Revised Parts I and II will be referred to in this report as Circular A-123,
Appendix C.
7
  Outlays include the issuance of checks, the disbursement of cash, or the electronic transfer of funds made to
liquidate a federal obligation.

                                                          2

                                               UNCLASSIFIED
                                             UNCLASSIFIED

payments of approximately $438 million to private sector vendors and grantees were subject to
the improper payments requirements of IPIA. 8

Prior OIG Reports

        In 2012, OIG reported 9 that BBG had not implemented all requirements for identifying
and reporting data on improper payments. Specifically, BBG had not performed an assessment
of the risk of improper payments, had not implemented a payment recapture audit program, and
had not included all required information in its PAR. OIG recommended that OFO perform a
program risk assessment or document the Chief Financial Officer’s approval for not performing
the assessment, implement a recapture audit program or formally notify OMB and OIG of its
decision not to do so, and develop and formally document a standardized process to ensure that
all required information is included in its PAR. These recommendations remained resolved but
open at the time of the fieldwork for this audit.

                                                 Objective
       The overall objective of this audit was to determine whether BBG was in compliance
with IPIA. To accomplish this objective, OIG

    •   Evaluated whether BBG conducted a risk assessment for significant programs.

    •   Evaluated BBG’s controls for preventing, detecting, and recapturing improper payments.

    •   Determined whether BBG reported the required improper payments information in its
        FY 2012 PAR.

                                              Audit Results
       OIG found that BBG had complied with IPIA requirements. Specifically, BBG
conducted an improper payments risk assessment of its significant programs; implemented a
program of internal control to prevent, detect, and recapture improper payments; and reported the
required improper payments information in its FY 2012 PAR.

Finding A. Program Risk Assessments Were Performed
        IPIA requires agencies to periodically review all programs and identify those that may be
susceptible to significant improper payments. OMB Circular A-123, Appendix C, defines
“significant improper payments” as gross annual improper payments in the program exceeding

8
  OMB Circular A-123, Appendix C, defines “payment” as “any payment or transfer of Federal funds to any non-
Federal person or entity.” Therefore, agencies are not obligated to review intra-governmental transactions and
payments to employees unless directed to do so by OMB.
9
  Audit of Broadcasting Board of Governors Compliance With the Improper Payments Information Act (AUD/IB-
12-32, March 2012).

                                                       3

                                             UNCLASSIFIED
                                             UNCLASSIFIED

(1) both 2.5 percent of program outlays and $10 million of all program payments made during
the fiscal year or (2) $100 million. The Circular requires that agencies institute a systematic
method of performing the reviews, also known as “risk assessments.” An agency can perform a
quantitative evaluation based on a statistical sample, or it can perform a qualitative assessment of
risk factors likely to contribute to significant improper payments.

        BBG performed a systematic risk assessment to identify programs that may be
susceptible to significant improper payments. Initially, BBG assessed the five programs that
provide BBG broadcast services: VOA, OCB, RFE/FL, RFA, and MBN. In performing the
assessment, BBG applied the 2.5 percent rate and $10 million threshold to the FY 2012 outlays
for each program. Based on its calculations, BBG determined that none of the programs met the
2.5 percent and $10 million threshold, with the improper payments error rate required for each
program to be susceptible to significant improper payments ranging from 5.8 percent to 43.7
percent of FY 2012 outlays.

        Subsequent to its initial risk assessment, BBG separated the payments for the
International Broadcasting Bureau and the Office of Technology, Services and Innovation 10 from
the existing five programs and created two additional programs. BBG decided to identify these
groups as separate programs because they are operationally different from the broadcast services
programs.

        BBG then performed a qualitative assessment of the seven programs. BBG rated each of
the programs on a scale of 1 to 5, with 1 defined as “very high risk” and 5 defined as “very low
risk,” for eight risk factors: Operational Risk, Complexity, Volume of Payments, Human Capital
Risk, Historical Risk, Information Technology Risk, Compliance Risk, and Total Dollar Value.
The ratings for each factor were averaged to arrive at the overall risk for each program. The
overall risk for the seven programs ranged from 3.63, moderate to low risk, to 5, very low risk.

        BBG also performed a quantitative assessment of two programs: MBN and RFE/RL.
Because the total population of payments for these programs was low, BBG reviewed all
payments in lieu of a statistical sample. None of the 33 payments, amounting to $205,516,067,
for the two programs was found to be improper.

       Based on the results of its risk assessment, BBG did not identify any programs
susceptible to significant improper payments as defined by OMB Circular A-123, Appendix C.

       To identify significant changes that could increase the susceptibility of its programs to
improper payments, BBG developed risk assessment procedures. The procedures require that
BBG conduct a qualitative assessment of its programs annually. The procedures also require that
BBG perform a quantitative risk assessment, based on a statistical sample, each year for any
programs identified as susceptible to improper payments and at least once every 3 years for all
programs regardless of the assessed risk level.

10
  The Office of Technology, Services and Innovation provides BBG with the technology necessary to conduct its
daily business, accomplish its mission, and deliver its content to populations throughout the globe.

                                                       4

                                             UNCLASSIFIED
                                       UNCLASSIFIED



      OIG’s 2012 report (AUD/IB-12-32) on BBG’s compliance with IPIA included a
recommendation relating to BBG’s improper payments risk assessment as follows:

Recommendation 1. OIG recommends that the Office of Financial Operations either perform a
risk assessment to identify programs at high risk of improper payments or formally document the
factors used to reach its conclusion that a risk assessment is not needed. If the Office of
Financial Operations performs a risk assessment, the process should be formally documented in
its policies. If a risk assessment is not performed, the Office of Financial Operations should
document the Chief Financial Officer's approval. In addition, the Office of Financial Operations
should reassess the decision annually to ensure that any changes in operating conditions are
considered.

     Based on the actions that BBG has taken since the 2012 report, OIG is closing
Recommendation 1 upon issuance of this report.

Finding B. Controls To Prevent, Detect, and Recapture Improper Payments
Were Implemented
        IPIA requires agencies to conduct recovery audits (also known as “recapture audits”) for
each program that expends $1 million or more annually if conducting such audits would be cost
effective. OMB Circular A-123, Appendix C, states that when implementing a payment
recapture audit program, “agencies shall have a cost-effective program of internal control to
prevent, detect, and recover overpayments.” Prevention activities are designed to prevent
improper payments from occurring, while detection activities occur subsequent to payment and
are intended to detect improper payments that may have occurred. Recapture activities are the
efforts directed toward recovering improper payments. The Circular defines a payment recapture
audit as “a review and analysis” of records, supporting documentation, and other information
supporting payments that is specifically designed to identify overpayments.

        BBG implemented a program of internal control to prevent, detect, and recapture
improper payments. Specifically, BBG had policies and procedures for prepayment reviews to
prevent improper payments, post-payment reviews to detect improper payments, and recapture
audits to recover improper payments. In addition, BBG analyzed the improper payments
identified through normal operations and took action to recover those payments.
Prepayment Reviews

        BBG's Manual of Operations and Administration requires prepayment reviews and
documents the procedures to prevent improper payments. For vendor payments, the Manual
requires, among other things, that the program office receiving the goods or services stamp the
invoice to certify receipt. The program office administrative officer must then certify funds
availability, the obligation document number, the obligation line number, the dollar amount, and
the receiving official's signature and phone number.



                                               5

                                       UNCLASSIFIED
                                        UNCLASSIFIED

        The Manual requires that the payment office audit the invoice “to ensure that there is a
valid obligation for the payment, it is a proper invoice, the required invoice stamp is completed
and signed, and supporting documentation is attached to the invoice.” Invoices with missing
elements must be returned to the administrative officer. According to the Manual, the payment
office enters the invoice and appropriate accounting data into the financial management system
and verifies the availability of funds. The certifying officer verifies that the data has been
correctly keyed into the financial management system by comparing the invoice with the
financial management system data and supporting documentation.

        The Manual requires that payment be made only for original invoices. If the original
invoice is lost, a copy marked “Duplicate Original” may be used when supported by an
administrative approval on the documents. Vouchers, voucher schedules, and supporting
documentation must be marked clearly to prevent duplicate processing. The approving official
must attach a full explanation of the circumstances surrounding the loss or destruction of the
original voucher or invoice to the duplicate voucher.

        The Manual also contains policies and procedures for grant payments. Specifically,
BBG's Office of General Counsel reviews and clears the annual grant agreement. The Chief
Financial Officer reviews and approves the grantee's annual financial plan, which must be
submitted with the grantee's monthly payment request. The budget office enters, into the
financial management system, an annual funding level based on the grantee's approved annual
program plan. The certifying officer obligates grant funding for each grantee based on the
signed grant agreement. The grants analyst reviews monthly funding requests submitted by the
grantee against the approved financial plan. The certifying officer prepares the payment request,
which must be signed by BBG's Executive Director. The administrative officer is required to
maintain monthly records of all grant payments, and the budget analyst tracks monthly grant
payments against the financial plan.

Post-Payment Reviews

       Since OIG’s 2012 report, OFO has developed, documented, and implemented post-
payment review policies and procedures to identify improper payments and to evaluate its
controls to prevent improper payments. According to the procedures, OFO will select a random
sample of payments with an emphasis on larger dollar amounts. Budget Division staff will
review the selected payments to determine, among other things, that the appropriate approvals
were obtained, the amount paid was the correct amount, and the payment was not a duplicate
payment.

        OFO performed a post-payment review of BBG’s FY 2012 domestic payments.
Specifically, OFO tested a sample of 100 payments–50 payments made during the first three
quarters of FY 2012 and another 50 payments made during the fourth quarter of FY 2012. For
each sample, payments were grouped into two primary categories, Domestic Payments and Grant
Payments, with emphasis given to dollar amount. In total for both samples, OFO randomly
selected 80 payments–40 Domestic Payments and 40 Grant Payments. In addition to this
random sample of 80, OFO judgmentally sampled an additional 20 payments to ensure coverage

                                                 6

                                        UNCLASSIFIED
                                       UNCLASSIFIED

of high dollar or unusual payments that were not randomly selected. The 100 payments sampled,
amounting to $140,175,465, represented approximately 34 percent of the universe of payments
of $409,943,243. No improper payments were identified during these post-payment reviews.

Recapture Audits

        In 2012, BBG contracted with an external firm to provide recapture audit services.
According to the Statement of Work for the contract, a recapture audit is to be performed on all
payments to determine whether improper payments were made. The objectives of the audit are
to identify payment errors attributable to overpayments and collection of overpayments, to define
the reasons for overpayments, to provide recommendations to prevent future overpayments, and
to provide documentation to bring BBG into compliance with IPIA and resolve existing audit
findings.

         The recapture audit will cover both the domestic payments processed by BBG and the
overseas payments processed by the Department of State on BBG’s behalf. The base year
recapture audit period covers payments made between October 1, 2009, and June 30, 2013, with
the initial focus on FY 2012 payments. The Statement of Work includes three option years to
cover payments made from July 1, 2013, through June 30, 2016.

        As part of the recapture audit, and in conjunction with the FY 2012 improper payments
risk assessment, the contractor reviewed 33 payments, amounting to $205,516,067, which
represented all payments made to two BBG grantees: MBN and RFE/RL. The contractor did not
identify any improper payments.

Analysis of Improper Payments Identified

       OMB Circular A-123, Appendix C, states that all agencies are required to establish
annual targets for their payment recapture audit programs. The targets must be based on the rate
of recovery. Agencies “shall strive to achieve annual recapture targets of at least 85 percent.”
BBG established a recovery rate target for improper payments of 95 percent.

        Although BBG did not identify any improper payments through its post-payment review
or recapture audit processes, BBG learned of 22 improper payments–21 overpayments
amounting to $1,241,909 and one underpayment of $310–during FY 2012. These improper
payments were reported by vendors or identified during normal operations.

        OFO analyzed each of the 22 improper payments to identify the program and the root
cause of the improper payment. Of the 22 improper payments, nine were duplicate payments
resulting from, among other things, illegible invoice numbers. Eleven payments were made to
the wrong vendor, and two payments were made in incorrect amounts in many cases because
information was entered into the financial management system incorrectly. The program with
the majority of the improper payments was VOA, which had 13 improper payments, amounting
to $1,187,013. This amount represented less than one percent of VOA’s FY 2012 outlays of
$173,331,266 and was well below the improper payment error rate of 5.8 percent required for

                                               7

                                       UNCLASSIFIED
                                       UNCLASSIFIED

VOA to have significant improper payments as defined by OMB Circular A-123, Appendix C.
At the time of this audit, BBG had recovered about $1,240,921 of the $1,241,909 in
overpayments, which represents a recovery rate of 99.92 percent.

      OIG’s 2012 report (AUD/IB-12-32) on BBG’s compliance with IPIA included a
recommendation relating to BBG's payment recapture audit program as follows:

Recommendation 2. OIG recommends that the Office of Financial Operations either implement
a recapture audit program for domestic and overseas payments or perform and document a cost-
benefit analysis supporting its decision not to implement recapture audit techniques. If the
Office of Financial Operations implements a recapture audit program, the process should be
formally documented in its policies. If the Office of Financial Operations chooses to not
implement a recapture audit program, it should formally notify both the Office of Management
and Budget and OIG and provide sufficient documentation to support the decision.

     Based on the actions that BBG has taken since the 2012 report, OIG is closing
Recommendation 2 upon issuance of this report.

Finding C. Required Improper Payments Information Was Reported
        To comply with IPIA, agencies must publish an annual financial statement for the most
recent fiscal year and post that report, with the information on improper payments required by
OMB, on the agency’s Web site. OMB Circular A-123, Appendix C, requires agencies to
disclose specific information relating to improper payments in their annual PAR in the format
provided in OMB Circular A-136, Revised, Financial Reporting Requirements.

        BBG disclosed the required improper payments information in its FY 2012 PAR.
Specifically, BBG published an FY 2012 PAR and posted that report on its Web site. In
accordance with OMB Circular A-136, BBG included in its PAR a list of its programs and a
description of its process to identify programs susceptible to significant improper payments.
BBG also described its payment recapture audit program efforts and completed the required
payment recapture audit tables. BBG had also developed procedures for its reporting process to
ensure its continued compliance with IPIA reporting requirements.

      OIG’s 2012 report (AUD/IB-12-32) on BBG’s compliance with IPIA included a
recommendation relating to BBG's improper payments reporting as follows:

Recommendation 3. OIG recommends that the Office of Financial Operations develop a
standardized process to ensure that all required information is included in the Broadcasting
Board of Governors Performance and Accountability Report and that the process is formally
documented in its policies.

     Based on the actions that BBG has taken since the 2012 report, OIG is closing
Recommendation 3 upon issuance of this report.


                                               8

                                       UNCLASSIFIED
                                       UNCLASSIFIED


                                                                                    Appendix A

                                 Scope and Methodology

       The Improper Payments Elimination and Recovery Act of 2010 1 (IPERA), which
amended the Improper Payments Information Act of 2002 2 (IPIA), requires the Office of
Inspector General (OIG) to conduct an annual audit of the Broadcasting Board of Governors
(BBG) compliance with improper payments requirements. In accordance with the IPERA
requirement, OIG performed this audit to determine whether BBG was in compliance with IPIA,
as amended by IPERA.

        OIG’s Office of Audits performed fieldwork from January to February 2013 at BBG’s
Office of Financial Operations in Washington, D.C. OIG conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objectives. OIG believes that the
evidence obtained provides a reasonable basis for the findings and conclusions based on the audit
objectives.

        To obtain background for the audit OIG researched and reviewed legislative requirements
related to improper payments, Government Accountability Office reports, Office of Management
and Budget guidance, information from BBG’s external financial statement auditor, and BBG
policies. In addition, OIG reviewed and analyzed prior OIG audit work to identify information
relating to improper payments issues that had been reported previously.

        During the audit, OIG evaluated whether BBG had conducted a risk assessment for
significant programs; evaluated BBG’s controls for preventing, detecting, and recapturing
improper payments; and determined whether BBG had disclosed the required improper payments
information in its FY 2012 Performance and Accountability Report (PAR). To accomplish these
objectives, OIG interviewed BBG officials to gain an understanding of its processes for
performing its risk assessment, identifying improper payments, and reporting improper payments
information. OIG assessed BBG’s policies and procedures for making payments, performing the
risk assessment, conducting payment reviews, and reporting improper payments information.
OIG also obtained and reviewed the documentation supporting the risk assessments and payment
reviews that were performed and reviewed the improper payments information disclosed in the
FY 2012 PAR.




1
    Pub. L. No. 111-204.
2
    Pub. L. No. 107-300.


                                               9

                                       UNCLASSIFIED
                                       UNCLASSIFIED


Work Related to Internal Controls

       OIG performed steps to assess the adequacy of internal controls related to the areas
audited. Specifically, OIG assessed the controls contained in BBG’s policies and procedures for
making payments, performing risk assessments, reviewing payments, and reporting improper
payments information. However, OIG did not perform testing of these controls because it was
beyond the scope of this audit.

Use of Computer-Processed Data

       OIG obtained computer processed data (that is, spreadsheets) to aid in determining
whether BBG had complied with IPIA. More specifically, the data provided evidence that BBG
had taken steps to comply with IPIA. OIG, however, did not perform tests to validate the
spreadsheet amounts because such testing was not necessary to accomplish the audit objectives.




                                               10

                                       UNCLASSIFIED
                                   UNCLASSIFIED



Major Contributors to This Report

Gayle Voshell, Director
Division of Financial Management
Office of Audits

Nancy Coonley, Audit Manager
Division of Financial Management
Office of Audits

Margery Karlin, Senior Auditor
Division of Financial Management
Office of Audits




                                        11

                                   UNCLASSIFIED
       UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




       UNCLASSIFIED
